                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

    Case Number: I08010009                                                                    Page 1 of 1



           OIG opened this investigation based upon information provided by a complainant1who alleged
           that a ~esearche?on an NSF SBIR ward^ had altered, modified, andlor fabricated letters of
           support he submitted with his proposal to NSF. The complainant submitted documentation
           which substantiated the allegation.

           The Researcher was sent a letter requesting that he review all support letters he had submitted
           with his proposal and provide a statement certifying the authenticity of each letter. The
           Researcher sent a written response explaining that he had not altered or modified any of the
           letters of support.

           The Researcher was sent a letter which stated that it appears that he had indeed altered portions    ,
           of letters of support but that it did not materially impact the decision to h n d the proposal. He
           was warned that he should comply with all statutory and regulatory provisions and requirements.

           Accordingly, this case is closed.




'NSF OIG Form 2 ( I 1/02)
I
